C'OCKLE

2311 Douglas Street A - - E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B be cfs contact@cocklelegalbriefs.com
: 3

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No.

HOWARD JARVIS TAXPAYERS ASSOCIATION,
JONATHAN COUPAL, AND DEBRA DESROSIERS,
Petitioners,

v.

THE CALIFORNIA SECURE CHOICE
RETIREMENT SAVINGS PROGRAM AND
JOHN CHIANG, IN HIS OFFICIAL CAPACITY AS
CHAIR OF THE CALIFORNIA SECURE CHOICE
RETIREMENT SAVINGS INVESTMENT BOARD,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), | certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 8609 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 12th day of October, 2021.
iam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL HOTARY-State of Rebraska
fe tee cose Kepee. 0. Llaae Qudia-K, Clell,

f Wy Comm. Exp. September 5, 2023 -
: Notary Public Affiant 41236
